                                    U.S. Department of Commerce


                                      Office of Inspector General
                                             June 11, 2010

       Program/Operation:     Nonresponse Follow-up
       Risk Area:             Performance/Quality



Early Observations Indicate That Some Nonresponse Follow-up
Procedures Are Not Being Followed and Others Are Lacking (OAE-
19893-01)
The Office of Inspector General (OIG) is overseeing Census’s Nonresponse Follow-up (NRFU), the
largest and most expensive Decennial Census operation. To complete NRFU, Census is operating 494
local Census offices (LCOs) nationwide and has hired over 600,000 temporary enumerators to determine
the status of households that received questionnaires in March but did not mail them back.

We are conducting fieldwork for the duration of NRFU, which is scheduled to end on July 27, 2010. The
following observations are the result of fieldwork conducted between April 23 and May 14, during
which time OIG staff visited and conducted office interviews at 22 LCOs and observed 115 enumerators
conducting 480 enumerations. To allow Census to take timely action, we communicated the information
in this report to bureau officials during the week of May 17. Based on our fieldwork, we identified the
following six areas of concern and made five recommendations. These findings are limited to our
observations of field procedures.

Procedures for Asking Race and Ethnicity Questions Are Not Being
Followed
To ensure that the more than 600,000 enumerators across the nation collect data in a consistent manner,
enumerators are trained to follow standard procedures. During our nationwide fieldwork, we observed
enumerators not following procedures by incorrectly completing the race and Hispanic-origin questions
on the questionnaires. Enumerators are required to provide respondents with a form that contains
Census’s confidentiality notice and response categories for the questions on household residency,
relationship to the reference person, Hispanic origin, and race. This form is available in both English and
Spanish. We observed 43 enumerators incorrectly communicating the race question to 108 respondents,
and 28 enumerators incorrectly communicating the Hispanic-origin question to 63 respondents. Errors
we witnessed included not providing or referring to the information sheet and its categories, not asking
if respondents wanted the question’s categories read aloud, and documenting the responses based on the
enumerators’ assumptions rather than asking respondents themselves the questions.




Commerce OIG                                         1                                      OAE-19893-01
Completed Enumeration Questionnaires Are Not Being Tracked
The enumerators’ supervisors, referred to as crew leaders, are responsible for collecting and reviewing
the completed enumeration questionnaires (EQs) daily. After the crew leader accepts the completed EQs
from the enumerator, he or she provides them to the LCO or to the field office supervisor, who in turn
submits them to the LCO. Due to existing data-entry backlogs, the completed EQs are stored at the LCO
for an indefinite time period until they are processed. EQs are not tracked during this time, making it
difficult to later locate lost questionnaires. We identified several instances in which field staff
implemented ad-hoc controls in the field. For instance, some enumerators wrote case identification (ID)
numbers on a form that the crew leader would sign and provide to the field operations supervisor; other
enumerators and crew leaders initialed the completed cases in the address register; and others listed
completed case IDs in a notebook. Because these activities are ad hoc and initiated by individual staff
members, they cannot be relied upon to systematically track the EQs. Although it is still too early in the
enumeration process to ascertain whether any completed EQs have been misplaced, should this occur,
another enumeration will be required, which will incur additional cost and further burden respondents.

Use of Public Database Information Raises Title 13 Confidentiality Issues
and Could Lead to Over-reliance on ‘Proxy’ Information
According to enumerators we observed, they were searching external sources to find respondent and
proxy contact information. (Proxies are neighbors, leasing agents, or others with knowledge of
respondents who are not at home when enumerators visit; Census rules allow enumerators to query
proxies for the household information.) For instance, enumerators, in their efforts to obtain telephone
numbers and proxy information, said they used Title 13 address information to conduct Internet reverse
searches on online directories, online county tax Web sites, and the Multiple Listing Service used by real
estate professionals. (Under Title 13 of the United States Code, individuals may be fined up to $5,000
and imprisoned not more than 5 years for disclosing Census Bureau data. 13 U.S.C. § 214.) The
enumerator manual does not discuss using the Internet to obtain respondent information. While such a
practice may be viewed as practical and even one showing initiative, Census needs to develop a policy
for the appropriate use of Internet information given the potential for compromise of Title 13
information and falsification of data.

In particular, this approach could reduce the accuracy of 2010 Census results if enumerators too often
substitute this more convenient information source for actual respondent interviews. Almost one-third of
the enumerations we observed were proxy interviews. In most cases, Census procedures require three in-
person visits before using a source other than a household respondent. One-third is a high proportion for
the start of the operation. Minimizing the use of proxy information is important because of its higher
potential for providing inaccurate and incomplete—or falsified—data. For example, during the second
week of June, OIG staff observed Census field supervisors identifying alleged cases of fraudulent
enumerations made by employees who are suspected of using the Internet as the source for the
information placed on the questionnaire.

Incorrect Information on Notice of Visit Forms
Our observations also identified several problems with how enumerators filled out the form left at
households where no one answered the door. The Notice of Visit form is used to inform occupants of the
enumerator’s visit and provides instructions for contacting the enumerator. Inconsistencies in

Commerce OIG                                         2                                      OAE-19893-01
completing the form are most likely caused by insufficient instruction during training. Enumerators were
to record their own telephone numbers on the form, or that of the LCO. Understandably, some
enumerators preferred not to list their personal telephone numbers. However, some LCOs did not have
an adequate number of staff or a process in place to receive calls from respondents who were instructed
on the form to call the LCO; in at least one instance, the LCO told the enumerators not to leave the
office number. Further, some enumerators recorded their employee ID numbers in the “ID No.” section,
rather than the case ID, while others did not enter any information there at all. Consequently, the EQ
associated with the visit form may not be easily identified, preventing the appropriate questionnaire
from being completed if the LCO or enumerator did receive a callback. Lastly, for apartment buildings
with common public areas, one enumerator documented the entire address or personally identifiable
information on the form, rather than just an apartment number. Census needs to define a standard
approach for the follow-up contact of respondents and ensure that the ID number on the Notice of Visit
form refers to the case ID and not the enumerator’s ID.

Inconsistent Handling of Update/Leave Questionnaires
Update/Leave is conducted in areas of the United States where the questionnaire may not be received by
the intended housing unit through normal mail delivery. During update/leave, enumerators verify, make
corrections, or delete addresses already on the address list, as appropriate; add any newly discovered
living quarters missing from the list; and update Census maps. A 2010 Census questionnaire is left at
every housing unit for the respondent to complete and mail back to the Census Bureau. We noted
discrepancies across the country regarding the disposition of update/leave questionnaires, which were
left hanging on doors when enumerators revisited nonresponding housing units. The enumerator manual
does not address the action that should be taken. In some cases, enumerators were instructed to collect
the forms, to be shredded at the LCO; in other cases, enumerators were instructed to leave the
questionnaires at the housing units. Census should devise a standard procedure and provide guidance to
its enumerators on how to handle questionnaires from the update/leave operation found at housing units.

Enumerators Unable to Obtain Complete Responses On One Military Base
Respondents and proxies at one Army military base did not want to provide detailed information to
Census enumerators. Citing the Privacy Act, respondents and base family-housing personnel provided
only the total number of people living in the housing unit, rather than information on each individual.
This could result in an undercount and a lack of information for that geographical area.


RECOMMENDATIONS

NOTE: The issues described in this report were conveyed to the Census Bureau on May 21. Although
the bureau responded rapidly to most of our recommendations, the impact of its corrective actions has
been limited because less than half of the NRFU workload remained.

To help ensure an accurate count and contain costs, Census should do the following: [Census’s response
follows each recommendation.]

       1.   Reiterate the enumeration procedures and the importance of ensuring that the respondent
            understands and answers the race and Hispanic-origin questions.

Commerce OIG                                        3                                      OAE-19893-01
                On May 25, Census issued a notice to the regional offices requesting that LCO staff
                “reinforce this information to all field staff that all questions on the D-1(E), Enumerator
                questionnaire, must be asked as worded and that no enumerator is to assume the answer for
                anyone.” The message also instructed enumerators to provide all respondents with the
                information sheet and allow them time to read it.

          2.	 Establish and implement a standard process for documenting and tracking completed and
              returned enumeration questionnaires to the LCO.

                Census stated that the current field procedures assure that every address visited during
                NRFU has evidence of a final disposition in the address register or completed enumeration
                questionnaire. Census stated that at this point in the operation, it was infeasible to add a
                "chain of custody" procedure to track questionnaires in the field, but will consider this
                concern when planning for the 2020 Census.

          3.	 Take action to ensure that Census information is properly protected. For enumerators with a
              high number of questionnaires that showed occupied housing units but who went straight to
              proxies for information, consider taking additional steps to monitor the quality of their
              work. Such actions could include adding the questionnaires to the re-interview or coverage
              follow-up operations.

                On May 26, Census issued a notice to the regional Census centers and local field offices to
                remind field staff of the inappropriate use of online sources for proxies.

          4.	 Provide a consistent set of instructions for correctly completing the Notice of Visit form,
              including how to fill out the enumerator-use-only portion and telephone number. In
              addition, provide guidance for handling remaining update/leave questionnaires.

                On May 26, Census sent a notice to the regional Census center and local field offices on
                with detailed instructions for filling out the Notice of Visit form and receiving incoming
                telephone calls at the local office. The bureau also plans to strengthen this area for the 2020
                Census.

          5.	 Take steps to ensure that military installations are cooperating with the census.

                Census followed up with the appropriate regional office and local office and does not
                believe that there are any particular problems with either base officials or with households
                refusing to participate. At the time these inquiries were made, 48 percent of the base
                housing units had been enumerated.


The Office of Inspector General has been identifying risk areas related to the 2010 Census that require continuing oversight. This flash
report is meant to communicate issues in a prompt manner, affording Census the opportunity for rapid corrective action.

Our work was performed in accordance with the Quality Standards for Inspections (rev. January 2005) issued by the President’s Council
on Integrity and Efficiency and under authority of the IG Act of 1978, as amended, and Department of Commerce Organization Order 10-
13 (August 31, 2006).




Commerce OIG                                                          4
                                                                      	                                                   OAE-19893-01
